                                      Office of Inspector General
                                     Corporation for National and
                                              Community Service




        EVALUATION OF THE FISCAL YEAR 2008
                 BUDGET PROCESS
                       OIG REPORT 09-16




                   1201 New York Avenue, NW,
                            Suite 830
                     Washington, DC 20525
                    Telephone (202) 606-9390
                    Facsimile (202) 606-9397




This report was issued to Corporation management on August 7, 2009. The
Corporation’s response to the draft report agreed with the recommendations and is
considered to be the Management Decision. Under the laws and regulations
governing follow-up, the Corporation is to complete its corrective actions by August 9,
2010. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                        August 7, 2009


TO:            Nicola Goren
               Acting Chief Executive Officer

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Office of Inspector General’s (OIG) Final Report 09-16: Evaluation of the
               Fiscal Year 2008 Budget Process

Attached is the OIG’s final report on the Evaluation of the Fiscal Year 2008 Budget Process.

Under the Corporation’s audit resolution policy, the notice of final action is due by August 9,
2010.

If you have questions pertaining to the final report, please contact Jim Elmore, Audit
Manager, at (202) 606-9354 or j.elmore@cncsoig.gov.


Enclosure

cc:   Frank Trinity, General Counsel
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, GFFM
      Marlene Zakai, Senior Advisor to the Acting CEO
      Sherry Blue, Audit Resolution Coordinator




                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
                            Evaluation of the Fiscal Year 2008 Budget Process



                                                      Table of Contents

                                                                                                                      Page
I. EXECUTIVE SUMMARY ................................................................................................... 1

II. BACKGROUND ................................................................................................................          4
    A. Overview ......................................................................................................................   4
    B. Salaries & Expenses ..................................................................................................            5
    C. National Civilian Community Corps .........................................................................                       6
    D. Information Technology .............................................................................................              6
    E. About this Evaluation .................................................................................................           7

III. OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................... 8

IV. CRITERIA ........................................................................................................................ 8

V. RESULTS ......................................................................................................................... 9
   A. Corporation Policy on Budget Execution ................................................................ 9
   B. Corporation Policy on Budget Formulation ........................................................... 11
   C. Human Capital Issues .............................................................................................. 12
   D. Salaries & Expenses ................................................................................................ 14
   E. National Civilian Community Corps ........................................................................ 15
      1. Estimating Costs . .................................................................................................. 15
      2. Monitoring and Executing the Budget ................................................................ 16
      3. Leasing Campuses . .............................................................................................. 17
      4. Corporation’s Corrective Actions ........................................................................ 17
      5. Relevant Criteria .................................................................................................... 18
   F. Information Technology ........................................................................................... 18
   G. Management Action Plan ......................................................................................... 21

VI. RECOMMENDATIONS ................................................................................................. 22

VII. EXIT CONFERENCE .................................................................................................... 28




APPENDIX:               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        RESPONSE TO THE DRAFT REPORT




                                                                    i
I. EXECUTIVE SUMMARY

Acting on a request from staff of the House Appropriations Committee, Subcommittee on
Labor, Health & Human Services, Education, and Related Agencies, the Office of Inspector
General (OIG), Corporation for National and Community Service (Corporation), conducted
an Evaluation of the Fiscal Year 2008 Budget Process (Evaluation). We conducted the
evaluation, which included an analysis of the formulation and execution of the Fiscal Year
(FY) 2008 1 Budget, to determine whether the Corporation properly and efficiently used the
appropriated funds it was provided.

While the Corporation generally accomplished the purposes for which it received
appropriations, it insufficiently managed the funds that it received in FY 2008. As a result,
the Corporation was forced to curtail needed hiring, training, and the acquisition of needed
supplies during the second half of FY 2008. If it had not drastically cut back on its spending,
the Corporation would have ended up in violation of the legal constraints on spending by
Federal agencies, i.e., an Anti-Deficiency Act (ADA) violation.

Many of the issues identified in this report resulted from a corporate organizational structure
that may no longer be adequate in view of the size of current programs and operations. The
organizational structure needs to provide a means to focus the attention of the Chief
Executive Officer (CEO) on overall Corporation operations, not only program operations.
The absence of a Deputy Chief Executive Officer, an operationally focused Chief Operating
Officer (COO), or other senior official with responsibilities over organizational-wide
administrative functions, along with budget pressures and significant information technology
(IT) problems that occurred, placed a severe strain on the organization and its CEO. This
focus on program operations left a void in managing other operations.

The Corporation was advised of this void in its management structure in 2005; however, it
did not address this void, which contributed to the problems that occurred in 2008. A
Congressionally authorized report, published by the National Academy of Public
Administration (NAPA) in October 2005, stated that the CEO was spread too thin, causing
the Corporation to operate without all the management direction it required. However, the
Corporation did not take appropriate steps to fix this condition, which was still hampering
Corporation operations in FY 2008.

Before the NAPA report was published, the Corporation filled the Chief Operating Officer
(COO) position in July 2005. With this COO focused exclusively on program operations as
stated in the COO’s new position description, the then CEO was overburdened with non-
program operational matters. The CEO also did not have the analytical support he needed
to assure himself that the information he received was timely and correct. This lack of
management support for the CEO, combined with a similar deficiency in human capital
resources independent of his Department heads to address non-program internal matters,
contributed to, and/or delayed the early resolution of, the FY 2008 budget and IT problems.
While overburdened with operational matters and emerging information technology issues,
the CEO, apparently recognizing he was overburdened, improperly directed that his then
Chief Information Officer (CIO) report to the Chief Financial Officer (CFO), contrary to
44 U.S.C. § 3506.



1
    FY 2008 began October 1, 2007, and ended September 30, 2008.


                                                     1
Problems stemming from the formulation and execution of the FY 2008 budget had an
adverse impact on the Corporation, its basic operations and its employees. Overspending
early in the fiscal year resulted in financial shortfalls in the second half which forced a near
hiring freeze, a halt to personnel training and travel, and a ban on the purchase of the most
basic office supplies. Morale suffered, as evidenced by plummeting scores on the 2008
Federal Human Capital Survey conducted by the Office of Personnel Management. Prior to
2008, favorable responses had been rising. In contrast, the 2008 results, when compared to
the prior year’s Human Capital Survey, showed an average drop in the percentages of
favorable/positive responses of 5.4 percent. In the 2008 survey, 31 of the 40 responses
were more unfavorable/negative than the responses of the prior year. Survey questions that
yielded the largest drop in favorable/positive results, with declines greater than 10 percent,
related to personnel training, employee perception of the Corporation's senior leaders,
recruiting, and performance recognition.

Budget areas of concern that emerged during FY 2008 included:

   Corporation Policy on Budget Execution: The Corporation lacked a current procedure
    manual or policy manual that identified the roles of personnel in monitoring budget
    execution. The Corporation also did not update budget personnel titles and functions in
    the policy.

   Corporation Policy on Budget Formulation: The Corporation does not have any formal
    written policies and procedures to govern the overall internal budget formulation
    process.

   Human Capital Issues: The Office of Budget experienced significant turnover in its
    personnel, and the Corporation did not accurately assess whether any new and
    reassigned personnel were matched directly and appropriately to the required
    competencies, experience, and technical knowledge of operations. Training was not
    provided that directly addressed the needs of Corporation personnel. Such training
    would have allowed them to gain adequate knowledge and skills to address the budget
    process for which they were responsible.

   Salaries & Expenses (S&E): The Corporation expended funds in its S&E account at an
    unsustainable rate during the first half of FY 2008. This was caused by hiring of
    employees without considering projections of the impact on annual budget marks. As a
    result, the dollar amounts for personnel, compensation, and benefits for the number of
    personnel hired would have exceeded budget limits had the Corporation not severely
    curtailed hiring and other operating expenses in the last half of the year, resulting in
    strained operations at that time.

   National Civilian Community Corps (NCCC): The Corporation did not adequately
    document its decision-making and rationale during the NCCC budget formulation
    process, particularly with regard to $5 million dollars that was provided for two new
    campuses. It was also unable to provide timely and accurate budget forecasting related
    to NCCC costs, and policies and procedures. NCCC, contrary to Corporation policy and
    procedure, publicly announced that member positions were available for a campus prior
    to obtaining Corporation-required certifications that funding was available for the
    education awards and other costs that would increase from filling those slots. The
    results included notices issued to members raising questions as to whether they could



                                               2
    come to the campus as scheduled, and NCCC was unable to open one campus in FY
    2008 as expected by Congress.

   Incremental Funding in NCCC Lease: A Corporation representative advised that during
    early FY 2008, the Corporation did not record its obligation in full for the Denver campus
    lease, as required. We did not review the NCCC lease contracts sufficiently to
    substantiate the lack of adherence to the full-funding requirement. The Corporation
    advised that its correction of the funding for NCCC leasing added additional unexpected
    budget pressures in FY 2008. We substantiated that it renegotiated one or more leases
    to provide for six-month leasing options in lieu of one-year leasing periods, which should
    reduce budget pressures, especially during periods in which continuing resolutions are in
    effect. A new Director of the Office of Procurement Services joined the Corporation on
    November 25, 2007, and has since directed his contracting officers to follow the full-
    funding requirement.

   Information Technology: The Corporation did not have an IT strategic plan in place to
    maintain the IT infrastructure, and to ensure its continued viability with increased volume
    and the need to adopt next generation modifications. It did not provide any needed
    guidance on how IT funds would be applied and what priorities would be set. As a
    result, significant costs incurred to resolve IT issues occurring in FY 2008, may not have
    been necessary had a strategic plan been in place and which provided for coordination
    of IT requirements among the Corporation’s users.

We make numerous recommendations herein to the Corporation to address these budget
issues and prevent their recurrence, which include: (1) evaluating the Corporation’s current
organizational structure, personnel responsibilities, and reporting relationships, which cover
the current roles of the CEO, COO, CFO, Office of Budget personnel, and the CIO’s
reporting relationship, to ensure needed coordination among personnel; (2) addressing
human capital issues to recruit and retain qualified personnel with the required
competencies, experience, and technical knowledge, and providing training that directly
enhances personnel technical knowledge; (3) updating its policies to reflect its latest budget
formulation, execution, and monitoring processes with emphasis on documentation and
approval requirements; and (4) imposing fiscal discipline by strictly enforcing budget policies
and planned budget marks.

We note that the Corporation recognized after the end of the second quarter of FY 2008,
that Departments had to rein in spending so that they would not cause an ADA violation
during the remainder of the fiscal year. The Corporation’s actions were then, for FY 2008,
necessarily drastic, to prevent exceeding its funding authorizations but with adverse effects
on its operations; it has since instituted changes in the NCCC program, in its IT operations,
and in its budgeting formulation and spending on salaries and expenses which should help
avoid a recurrence. It has also developed a Management Action Plan to serve as a
blueprint for achieving its mission and preparing for projected growth, and which includes
tasks that address some of the budget concerns and issues we found occurred in FY 2008.

The Corporation’s response to recommendations in a draft of this report generally met the
intent of the recommendations. However, in some instances the responses did not
specifically address the recommendations. We summarized the Corporation’s responses to
each recommendation in the body of the report, which are followed by our comments. The
Corporation’s verbatim response to the draft report is included as an Appendix.



                                              3
II. BACKGROUND

   A. Overview

Federal agencies including the Corporation are subject to 31 U.S.C. § 1514. Administrative
division of apportionments, which states, in part:

       (a) The head of each executive agency … shall prescribe by regulation a
       system of administrative control not inconsistent with accounting procedures
       prescribed under law. The system shall be designed to -

              (1) restrict obligations or expenditures from each appropriation to
              the amount of apportionments or reapportionments of the
              appropriation; and
              (2) enable the official or the head of the executive agency to fix
              responsibility for an obligation or expenditure exceeding an
              apportionment or reapportionment.

To implement 31 U.S.C. § 1514 and other applicable Office of Management and Budget
(OMB) instructions, the Corporation established Corporation Policy CFO-06-001,
Administrative Control of Funds (Budget Policy), in October 2006. It provides policies for
Corporation personnel to follow in executing the budget and presents basic fund control
principles and concepts. The Budget Policy also outlines specific procedures to be used to
report violations of the ADA.

Under provisions of the Corporation’s Budget Policy and OMB Circular A-11, Preparation,
Submission, and Execution of the Budget, the Corporation budget process consists of
formulation, execution, and monitoring.

The Corporation Budget Office began its Corporation FY 2008 budget formulation process in
March 2006. During this process, the three Corporation Departments -- (1) Office of the
CEO; (2) Office of the COO; and (3) Office of the CFO -- worked with their program offices
and operating units to identify needs, determine associated costs, and make decisions for
the FY 2008 budget. Budgets for each subordinate unit were formulated using a “current
services” budget formulation model. Each unit was asked to develop a budget, starting with
the baseline amount for the FY 2007 President’s Budget request, and to justify any
proposed expenses above current services. Based on the information submitted by the
units and Department Heads (CEO, CFO, and COO), a budget was formulated for the
CEO’s review. After the CEO’s final content review and approval, the FY 2008 Budget and
Performance Plan was delivered to OMB in September 2006. OMB performed its review of
the Corporation FY 2008 budget from September to November 2006. On February 5, 2007,
the Corporation formally released its FY 2008 Budget Justification to the public.

While Congress considered the government-wide FY 2008 budget, the Corporation started
developing its FY 2008 Operating Plan in July 2007. To prepare for the anticipated
Continuing Resolution (CR) period, the Corporation issued a memorandum before the CR
period and two additional memoranda during the CR period to provide guidance on the
operating plan as well as budget execution processes and procedures during the CR period.
During the CR period from October 1, 2007, to December 26, 2007, the Corporation
operated at a funding level equal to the prior year’s funding levels.



                                            4
The Corporation’s FY 2008 budget was finalized when the President signed the
Consolidated Appropriations Act, 2008 (Public Law 110-161) on December 26, 2007. The
Corporation was provided with approximately $850.5 million, 2 with the required
1.747 percent rescission. Details of the Corporation’s FY 2008 budget for S&E and NCCC
are shown in the table that follows:

           Appropriation               Budget            Appropriation         Appropriation Enacted
             Accounts                 Requested           Language             (With 1.747% Rescission)
    S&E                             $ 69,520,000         $ 68,964,000               $ 67,759,000
    Domestic Volunteer
                                       294,226,000            313,054,000            307,585,000
    Service Act (DVSA)
    National & Community
    Service Act (NCSA):

       (a) NCCC                         11,620,000            24,205,000               23,782,000

       (b) Other Programs             447,802,000             459,403,000            451,377,000

    Total Budget 3                  $ 823,168,000        $ 865,626,000              $ 850,503,000

The Corporation’s budget execution process begins after the enactment of the appropriation
legislation or CR, with the receipt of the Treasury Warrant, and subsequent receipt of OMB’s
approved quarterly apportionments on forms SF 132, “Apportionment and Reapportionment
Schedule” – often one for S&E and one or more for program funds. The Budget Policy
provides that the “CEO delegates administrative control of funds through allotment to the
CFO for further … [re-delegation] through the … [sub-allotment] process to the Department
Heads.” The CFO will be the allottee for Corporation-wide allotments and the CEO, COO,
and CFO, as Department Heads, are designated as sub-allottees to function as Fund
Administrators, supported by designated Executive Officers. An allottee or sub-allottee is a
recipient of an Advice of Funds. The Budget Policy also provides for the CFO’s Budget
Office to issue allotments and sub-allotments via written Advice of Funds to the CFO and
Department Heads functioning as Fund Administrators. The Budget Office also enters
apportionments, allotments, and sub-allotments into the accounting system (Momentum).

      B. Salaries & Expenses

The S&E appropriation provides the salaries and operating expense funding needed to
enable the Corporation to administer its programs and meet its strategic and management
goals. The Corporation’s S&E appropriation is maintained as a separate Treasury account.

The FY 2008 S&E appropriation, after the 1.747 percent rescission, represented a reduction
of $2.5 million from the prior year funding level after taking into account mandated
increases, such as an increase in the cost-of-living allowance. The Corporation’s strategy to
meet this lower funding level included: (1) freeing up $3.5 million intended for personnel



2
    The OIG’s appropriation account is excluded for purposes of this report.
3
    Ibid


                                                          5
compensation and benefits by projecting an 8.5 percent salary lapse rate 4 for FY 2008; and
(2) planning reductions in non-pay discretionary spending ($.7 million). In addition, the
Corporation sought and obtained legislative authority to offset electronic grant management
costs previously covered by S&E with up to one percent of program grant funds ($2 million).

    C. National Civilian Community Corps

NCCC is a full-time, team-based, residential AmeriCorps program that provides local public
and nonprofit organizations, having limited resources, with access to flexible, quick
response teams to meet sudden unpredictable community needs. NCCC members live on
campuses, but are deployed in partnership with nonprofit organizations, state and local
agencies, and faith-based and other community organizations in all 50 states and some U.S.
territories, as needed.

The Corporation’s original FY 2008 NCCC Budget Justification provided for member support
and program operations at three NCCC campuses: Denver, Colorado; Sacramento,
California; and Perry Point, Maryland. The Corporation, upon the passage of the
Consolidated Appropriations Act, 2008, received within its Operating Expenses
Appropriation, Treasury Symbol 95-8-2728, a separate amount for its NCCC program.
However, this amount, $24,205,000 ($23,782,000 after the 1.747 percent rescission) was
available for obligation until September 30, 2009, one more year than the appropriation for
all of the Corporation’s other program and operating funds. In addition, the Act directed the
Corporation to open new campuses at Vinton, Iowa, and at Vicksburg, Mississippi.
Specifically, the Consolidated Appropriations Act, 2008, stated “not less than $5,000,000
shall be for the acquisition, renovation, equipping and startup costs for a campus located in
Vinton, Iowa and a campus in Vicksburg, Mississippi to carry out subtitle E of title I of the
[National and Community Service Act of] 1990 Act." The $5 million that was allocated for
the two new campuses was also subject to the 1.747 percent rescission as part of the
overall FY 2008 NCCC budget.

Congress described its expectation regarding these campuses in the Joint Explanatory
Statement, 5 which states, “The Appropriations Committees expect that an NCCC class will
be operating out of each facility by the end of fiscal year 2008 [September 30, 2008] as
proposed by the Senate.” The Vinton campus opened in July 2008, and its first class
graduated on April 30, 2009. However, the Vicksburg campus did not open until August
2009, which is ten months later than anticipated by Congress.

    D. Information Technology

The Corporation budget for IT is typically funded through S&E for Office of Information
Technology (OIT) functions and through individual programs for their respective related IT
systems. The Corporation’s FY 2008 budget included funding for specific IT projects on
development of IT system architecture, accounting system (Momentum) upgrades, and

4
  The Corporation defines salary lapse rate as, “The period of time between when a position becomes vacant
and when it is backfilled, during which the position consumes no payroll funds. The lapse rate is driven by
personnel turnover and the speed with which the agency [Corporation] is able to hire new personnel. Another
factor is the differential between the salaries of departing and replacement personnel.”
5
 The Joint Explanatory Statement on the Consolidated Appropriations Act, 2008, Committee Print of the House
Committee on Appropriations on H.R. 2764 / Public Law 110-161 (see Book 2, Division G, Page 1605) is
available at http://www.gpoaccess.gov/congress/house/appropriations/08conappro.html.


                                                    6
Phase II release of the My AmeriCorps Portal. As stated above, the Corporation obtained
legislative authority to offset electronic grant management costs previously covered by S&E
with up to one percent of program grant funds.

During FY 2008, the Corporation had a series of challenges related to IT systems and
management. First, at the beginning of FY 2008, Infonetic, the contractor that provided
primary IT services to the Corporation, filed for bankruptcy, and the Infonetic personnel
assigned to the Corporation were laid off. Infonetic had managed the helpdesk function of
the OIT as well as the Corporation’s grant electronic information systems, eGrants and
eSpan. Infonetic also provided support staff for Corporation IT projects, including the My
AmeriCorps Portal, the Data Warehouse, 6 and many of the Corporation’s Business
Intelligence Dashboard 7 (Dashboard) initiatives. In late November 2007, the Corporation
secured a contract novation, substituting Engenius as the new contractor. This unforeseen
loss of a substantial portion of IT contract personnel impacted the Corporation services at
various levels and delayed IT project initiatives, including the forced postponement of the
launch date for Phase II of the My AmeriCorps Portal until January 2008.

In addition, starting after the first quarter of FY 2008, there were a series of substantial
failures of Corporation IT systems. New or modified systems did not perform as expected
with intermittent failure of systems, such as Momentum, eGrants, and My AmeriCorps Portal
to interoperate correctly and concurrently. Consequently, the Corporation’s routine work
and customer service delivery were adversely impacted. Not only did the Corporation delay
the My AmeriCorps Portal Phase II implementation, Corporation personnel and grantees
experienced difficulties in accessing the Corporation’s IT systems to perform their work.
These IT issues contributed to the significant deficiency designation on the OIG’s FY 2008
Independent Auditor’s Report on Internal Control.

In March 2008, the Corporation took positive steps to determine the causes of IT issues. It
awarded a contract to an independent IT consultant, Fred Thompson, to review the incidents
that occurred during the first half of FY 2008 and to make recommendations to improve the
IT operations. The final report, Recommendations for Improving Information Technology
Operations and Management at the Corporation for National and Community Service (Fred
Thompson IT Report), dated May 23, 2008, listed numerous recommendations. The
purpose of this evaluation is not to repeat what is in the Fred Thompson IT Report (although
we take its findings into account), but to recognize some of those findings which created the
budget pressure that the Corporation encountered in FY 2008.

    E. About this Evaluation

This evaluation came about as a result of a Congressional request. In September 2008, we
received inquiries from Congressional staff regarding the Corporation’s budget formulation
and execution practices during FY 2008. As we performed pre-engagement interviews with
current Corporation personnel and preliminary research from November through early

6
  The Data Warehouse is a Corporation information system, which includes historical data received from
Momentum and eSPAN to enable Corporation personnel to examine past conditions within the data and to
facilitate trend and variance analyses.
7
  The Dashboard was designed as a management tool that communicated large quantities of information and is
a component of the Data Warehouse. The Dashboard includes management metrics (examples include
purchase card delinquency rate, number of program participants, financial activities baseline summary, etc.) and
is only available internally for Corporation personnel.


                                                       7
December 2008, we noted indications of various potential issues related to the Corporation’s
FY 2008 budget process. Based on our preliminary observations, we determined the format
of the engagement to be an evaluation and developed the engagement’s objective and
scope. We communicated our evaluation objective and scope to Congressional staff and
Corporation management in late December 2008.


III. OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this evaluation is to evaluate the Corporation’s management and budgetary
controls to determine whether it effectively accomplished the purposes for which it received
appropriations. We did this by analyzing the Corporation’s formulation and execution of its
budget for FY 2008.

Our evaluation focused on the Corporation’s management of budget process and budget
pressures that emerged in FY 2008, which took into account the Corporation’s allocation
and reallocation of its apportionment to various Program Offices. Our evaluation addressed
the appropriation account for the Corporation’s programs and the account for S&E. We also
focused on budget pressures, such as salaries and the impact of hiring, the opening of two
new NCCC campuses, and IT issues that impacted accounts in FY 2008.

Our scope excludes a full analysis of NCCC leasing contracts, and their impact on legal and
administrative funding authorization limitations that apply to or within the Corporation. We
excluded this information from the scope in order to issue this report as early as possible,
and plan to later review contracting and funding aspects related to NCCC leases.

The methodology included in-person and telephone interviews with 32 current or departed
Corporation employees, and the then Chairman of the Board of Directors, as well as reviews
of Corporation correspondence, e-mails, memoranda, and budget work documents. We
obtained an understanding of the Corporation’s budget process, issues, and events that
impacted the FY 2008 budget during our interviews. We also compiled and examined
supporting documents used for formulating, executing, and reporting the Corporation’s
budget process. In addition, we identified, documented, and reviewed laws, policies, and
procedures that relate to the Corporation's budget process. We did not validate figures from
supporting documentation or otherwise verify whether data and information provided by the
Corporation were correct.        However, we reviewed supporting documentation for
reasonableness and re-interviewed Corporation personnel to get clarification and new
information as deemed necessary.

We conducted our work from December 2008 to May 2009 and in accordance with Quality
Standards for Inspections (January 2005) issued by the President’s Council on Integrity and
Efficiency (currently the Council of the Inspectors General on Integrity and Efficiency).


IV. CRITERIA

We identified, documented, and reviewed laws, policies, and procedures that relate to the
Corporation's budget process. The criteria we reviewed included:

   Corporation Policy: Administrative Control of Funds (CFO-06-001)
   Corporation Policy: Capital Planning and Investment Control (OIT-07-002)


                                             8
   Corporation Policy: Procuring Supplies and Services (350 REV02)
   OMB Circular A-11, Preparation, Submission, and Execution of the Budget
   OMB Circular A-130, Management of Federal Information Resources
   Anti-Deficiency Act (Title 31 U.S.C. §§ 1341-1342, 1349-1351, 1511-1519)
   The Corporation’s FY 2008 Budget Justification
   Consolidated Appropriations Act, 2008 (Public Law 110-161)
   A Glossary of Terms Used in the Federal Budget Process (published by Government
    Accountability Office [GAO] in September 2005)
   GAO Standards for Internal Control in the Federal Government
   Paper Reduction Act (Title 44 U.S.C. § 3506)
   Federal Acquisition Regulation (Title 48 C.F.R. § 32.7)


V. RESULTS

    A. Corporation Policy on Budget Execution

The Corporation’s Budget Policy has not been updated since its effective date of October 1,
2006. This version is the most recently cleared policy on Corporation fund control and
budget matters. As a result of a series of changes in personnel and budget processes
during FY 2008, portions of the Budget Policy do not reflect actual current reporting
structures and budget practices at the Corporation. For example:

   There are references to the “Deputy CFO for Planning and Program Management”
    throughout the Budget Policy that outline roles and responsibilities in the Corporation
    budget process for the Deputy CFO for Planning and Program Management. When the
    Deputy CFO for Planning and Program Management departed from the Office of the
    CFO in January 2008, these responsibilities were transitioned to other personnel,
    including the Deputy CFO for Financial Management, the Deputy CFO for Grants and
    Field Financial Management Center, and the Staff Director/Associate CFO;

   In accordance with the Budget Policy, Executive Officers are designated by their
    respective Department Heads to manage budget execution. However, during the
    second half of FY 2008, the Office of CFO was restructured to centralize all budget
    personnel and to move all Executive Officers under the Office of CFO;

   The Budget Policy provides the basic controls over budget execution that are intended to
    provide a system for positive control of funds, but the guidance is not only contradictory
    but the essential root control of its allotments is not followed at the CEO level.
    Paragraph VI.2.a. of the Budget Policy describes the responsibilities of the CEO:

       [A]ll funds available for obligation must be authorized by the CEO. The CEO
       delegates administrative control of all funds available for obligation through
       allotment to the [CFO] for further redelegation through the suballotment
       process to Department Heads. Department Heads are responsible for
       ensuring that obligations against funds suballotted to them do not exceed the
       amount available for other than allowable and authorized purposes.

    In practice, however, we found no delegation from the CEO, and the Office of Budget
    delegated both allotments and sub-allotments to Department Heads. We also found the


                                              9
    Advice of Funds, which is the delegation document, did not differentiate between an
    allotment and sub-allotment or any other authorization of funds. None of the Advice of
    Funds documents, at any level, described penalties that could apply even if not subject
    to the ADA or even whether the funding authorization was subject to the ADA.

   Functions of the Budget Director were divided into two separate positions, the Chief of
    Budget Execution, and the Chief of Budget Formulation and Performance, at the
    beginning of FY 2009; and

   The Corporation implemented iBudget 8 and Salary Management System (SMS) 9 as
    required systems for budget execution and payroll projections in FY 2008.

None of the above changes in the Corporation’s reporting structures and budget practices
has been incorporated in the Corporation’s Budget Policy. While we believe that
centralizing the control over the Executive Officers was a positive step, such changes in
personnel reporting relationships need to be reflected in the Budget Policy. Keeping the
Budget Policy current with roles and responsibilities helps ensure that the Corporation is
functioning within the controls it has established and that the established controls remain
effective regardless of changes in individuals or position responsibilities.

In addition, the current Budget Policy does not adequately address budget monitoring
procedures in depth. Such details as budget monitoring procedures, oversight mechanisms,
and tracking budget projections during and across fiscal years are not addressed in the
current Budget Policy.

The Budget Policy provides for administrative penalties for anyone who violates 31 U.S.C.
§§ 1341(a), 1342, or 1517(a) (see text of the code following this paragraph). While some
Federal agencies apply these sections below the allotment level for greater control, the
Corporation has chosen to apply these sections solely at the apportionment and allotment
levels, i.e., those funds for which the CEO and CFO are responsible. The Budget Policy
also provides that, at the CEO’s discretion, similar penalties may be applied “to any
Corporation officer or employee responsible for over-obligation of an internal administrative
sub-division of funds below the allotment level.” The Advice of Funds form, used to
distribute sub-allotments and allocations, does not contain language that would make the
recipient aware of the potential for penalties described in the Budget Policy. As a best
practice, the language should be contained in The Advice of Funds form or its supporting
attachments to ensure the recipient is aware of the penalties for exceeding obligational
authority. The Corporation, after giving such notice, should, in the future, impose such
penalties where circumstances so warrant.

31 U.S.C. § 1341. Limitations on expending and obligating amounts states, in part:

         (a)
         (1) An officer or employee of the United States Government … may not—

8
  The iBudget software is a Corporation production tool that allows budget personnel to perform budget
execution. It allows the Office of Budget to record financial information on the Corporation's Operating Plan.
9
  SMS is a payroll budgeting tool that records and projects payroll, replacing a spreadsheet-based payroll
budgeting and tracking system. It contains all personnel data that affect the payroll budget, including base pay,
locality pay percentages, health benefits, etc.


                                                      10
       (A) make or authorize an expenditure or obligation exceeding an amount
       available in an appropriation or fund for the expenditure or obligation;
       (B) involve … [United States] government in a contract or obligation for the
       payment of money before an appropriation is made unless authorized by law;
       (C) make or authorize an expenditure or obligation of funds required to be
       sequestered under section 252 of the Balanced Budget and Emergency
       Deficit Control Act of 1985; or
       (D) involve … [United States] government in a contract or obligation for the
       payment of money required to be sequestered under section 252 of the
       Balanced Budget and Emergency Deficit Control Act of 1985.

31 U.S.C. § 1342. Limitation on voluntary services states, in part:

       An officer or employee of the United States Government … may not accept
       voluntary services for either government or employ personal services
       exceeding that authorized by law except for emergencies involving the safety
       of human life or the protection of property.

31 U.S.C. § 1517. Prohibited obligations and expenditures states, in part:

       (a) An officer or employee of the United States Government … may not make
       or authorize an expenditure or obligation exceeding—
       (1) an apportionment; or
       (2) the amount permitted by regulations prescribed under section 1514 (a) of
       this title.

GAO Standards for Internal Control in the Federal Government states that:

       [I]nternal control activities help ensure that management’s directives are
       carried out. The control activities should be effective and efficient in
       accomplishing the agency’s control objectives. Control activities are the
       policies, procedures, techniques, and mechanisms that enforce management’s
       directives, such as the process of adhering to requirements for budget
       development and execution.

Without up-to-date internal control policies that are documented, articulated, and enforced
throughout the Corporation, personnel may not clearly understand their responsibilities and
the proper procedures to follow regarding the budget execution process. As a result, there
is a higher risk of losing control and accountability over appropriated funds.

Corporation management noted that the Budget Policy is under review as of this evaluation
report date.

   B. Corporation Policy on Budget Formulation

While the Corporation followed OMB Circular A-11, Preparation, Submission, and Execution
of the Budget, that addresses the responsibilities of Federal agencies in budget submissions
to OMB and Congress, it does not have any formal written policies and procedures to
govern the overall internal budget formulation process. Also, the Corporation does not
define, in writing, the roles and responsibilities of its personnel or the approval procedures
regarding the budget formulation process.


                                             11
The same relevant criterion from the GAO Standards for Internal Control in the Federal
Government that was mentioned in the previous section (Corporation Policy on Budget
Execution) is also applicable to our finding on the Corporation’s policy on budget
formulation.

Without a written budget formulation policy that is communicated throughout the
Corporation, personnel may not clearly understand their responsibilities and/or the proper
procedures to follow regarding the budget formulation process. As a result, Corporation
management may have difficulties in establishing the basis of its budget submissions,
determining budget requirements, and tracking details of budgets submitted by its operating
units.

     C. Human Capital Issues

There was significant turnover in the Office of CFO, particularly in the Office of Budget.
During FY 2008, seven employees from the Office of Budget left the Corporation, including
the Budget Director, an Executive Officer, and five Budget Analysts.             The Staff
Director/Associate CFO also left the Corporation shortly after FY 2008. The Corporation
filled some vacancies in the Office of Budget. However, according to the draft organization
chart dated February 2009 and despite the subsequent hiring of two new Budget Analysts in
March 2009, there were still six vacant positions (an Executive Officer, a Senior Budget
Analyst, and four Budget Analysts) as of April 2009.

At the leadership level in the Office of CFO, both the CFO 10 and the Deputy CFO for
Planning and Program Management departed during FY 2008. The continuous turnover in
the budget arena, particularly, but not limited to, the CFO and the Budget Director,
contributed to the FY 2008 budget issues. From September 2004 through April 2009 – a
total of 56 months -- the Corporation had only one Presidentially appointed CFO, who
served for a total of 26 months. For the rest of the 30 months, two Acting CFOs served.
Also, the Corporation had three Budget Directors (including the Staff Director/Associate
CFO who handled the functions of the Budget Director) over the last five years. This lack of
continuity created an environment that contributed to the weakened control environment.

In addition to personnel turnover, the imprudent, informal, but tacit, assignment of the Staff
Director/Associate CFO to function as the Budget Director contributed to the budget
challenges in FY 2008. As previously discussed, the Staff Director/Associate CFO served
as the Budget Director after the Budget Director left the Corporation in April 2008. Our
review showed that the Staff Director/Associate CFO’s résumé did not match the duties and
required competencies of the Budget Director’s position description.                The Staff
Director/Associate CFO lacked specific experience in technical budget matters and did not
have any previous management experience. While lacking the necessary qualifications to
function effectively as Budget Director, the Staff Director/Associate CFO initially had the
confidence of the CEO and, unlike others in the Corporation, convinced the CEO of the
need to cut back on spending or face an ADA violation. None of budgeting deficiencies that
resulted in the need for drastic cutbacks in spending were the direct result of actions by the
Staff Director/Associate CFO.


10
  While the CFO technically left on a detail to another Federal agency on September 10, 2008, the reality was
that it was known to be a permanent departure, as it turned out to be.


                                                     12
During FY 2008, we noted an instance that the Corporation did not accurately assess if the
newly designated and reassigned position/responsibility was matched directly and
appropriately to a Corporation employee in the budgeting function who possessed the
required specific competencies, experience, and technical knowledge. To ensure proper
segregation of duties and administrative control over the budget process, it is critical that
employees, assigned to positions designated with specific responsibilities, have the
corresponding competencies, experience, and technical knowledge in management
administration in the respective type of work or combination of functions of the position. As
reflected in the FY 2008 Human Capital Survey, only 60.5 percent of Corporation personnel
believed their work units were able to recruit people with the right skills, which was a
decrease of 11.5 percent from the FY 2007 Human Capital Survey.

Numerous interviewees, including budget personnel and Executive Officers, stated that
budget personnel did not receive sufficient training that directly addressed their needs by
enhancing technical skills and knowledge in the budget area. As FY 2008 progressed, due
to the S&E budget issues discussed later in this evaluation report, the Corporation
significantly reduced its discretionary spending, including curtailing personnel training
funding following the second quarter of FY 2008. As shown from the results of Human
Capital Surveys in FY 2007 and FY 2008, the percentage of personnel who thought their
training needs were properly assessed decreased from 53.8 percent in FY 2007 to
37.3 percent in FY 2008. Also, the percentage of personnel who were satisfied with the
training they received decreased from 51.2 percent in FY 2007 to 41.9 percent in FY 2008.
These deficiencies in training and matching the knowledge and expertise of personnel with
the positions to which they were assigned most likely contributed to the Corporation’s
budgetary problems.

We also noted that the COO position was not a true COO, as the title implies, and focused
exclusively on program operations as intended by the CEO and as stated in the COO’s new
position description. Without a true COO or a senior official focused on broad internal
administrative operations, the CEO was overburdened with non-program operational matters.
The CEO also did not have the analytical support he needed to assure himself that the
information he received was timely and correct. The lack of management support for the
CEO, combined with significant turnover at the Office of Budget, contributed to, and/or
delayed the early resolution of, the FY 2008 budget and information technology problems.

In October 2008, the COO was detailed to another agency, and the Corporation assigned an
employee to assume duties of both the COO and the newly created Chief of Program
Operations (CPO) position. In April 2009, the Corporation changed the position title from
COO to CPO on an undated organizational chart. However, the Corporation mistakenly
changed the position title from CPO back to COO in May 2009. As a result, the incorrect
undated Corporation organizational chart was posted on the intranet and was published in the
FY 2010 Budget Justification.

It is clear that the Corporation did not comply with GAO Standards for Internal Control in the
Federal Government, which states:

       ... effective management of an organization’s workforce - its human capital -
       is essential to achieving results and an important part of internal control …
       Only when the right personnel for the job are on board and are provided the
       right training, tools, structure, incentives, and responsibilities is operational
       success possible.        Management should ensure that skill needs are


                                              13
       continually assessed and that the organization is able to obtain a workforce
       that has the required skills that match those necessary to achieve
       organizational goals. Training should be aimed at developing and retaining
       employee skill levels to meet changing organizational needs. Qualified and
       continuous supervision should be provided to ensure that internal control
       objectives are achieved ... As a part of its human capital planning,
       management should also consider how best to retain valuable employees,
       plan for their eventual succession, and ensure continuity of needed skills and
       abilities.

The Corporation has recognized its shortcomings in this regard in the budget area, and has
now undertaken an effort to fill all needed positions in the Office of the CFO. Staffing
changes as of April 2009 included recent hiring of: (1) a Chief of Budget Execution to
replace the acting personnel; (2) a Chief of Budget Formulation and Performance; and (3)
two Budget Analysts. In addition, the Corporation has established a training budget for FY
2009 and proposed one for FY 2010 and plans to work with a management consultant to
review the Corporation’s organizational structure.

   D. Salaries & Expenses

During the first half of FY 2008, the Corporation expended the S&E at an unsustainable rate,
unaligned with its budget marks. The Corporation noted the problem after the mid-year
review. As disclosed in a Corporation internal memorandum dated July 2008, if it did not
take immediate corrective actions, the projected balance of S&E at FY 2008 year-end would
be in a $1.3 million deficit at the appropriation level, which, if allowed to happen, would place
the Corporation in a violation of the ADA. The inability to manage the S&E during the first
half of FY 2008 was due, in part, to the human capital issues described above, but also
caused by an inaccurate S&E budget projection (salary lapse rate), a lack of discipline in
executing the S&E budget, and an ineffective process to monitor S&E projections.

When the Corporation formulated the FY 2008 S&E budget, it projected an 8.5 percent
salary lapse rate, which was equivalent to $3.5 million, more than twice the 3.8 percent
salary lapse rate experienced in FY 2007. However, the Corporation personnel did not
document the calculation or justifications of the 8.5 percent lapse rate. This raises the
question as to whether this enlarged salary lapse rate was plugged in for the purpose of
artificially closing the gaps in S&E budget, or just poor planning. Senior Corporation
personnel had early on communicated to the then CEO that the 8.5 percent salary lapse
rate would not be obtainable, but the CEO overrode those concerns, relying upon past
performance of lapse rate and without knowledge of the IT issues that would emerge and
other unforeseen budget pressures such as correcting incrementally funded NCCC leases
and a higher-than-expected cost-of-living allowance that was approved by Congress.

The impact of these events was exacerbated by an excess of hiring at the Corporation,
particularly for the Office of the COO. For example, the Corporation hired 65 new
employees during the first half of FY 2008, compared with 53 new employees during the
same period in FY 2007. Among the 65 new employees hired in FY 2008, 37 new
employees were assigned to the Office of the COO. As the hiring took place, the
Corporation did not strictly enforce the established budget marks among its Departments
and they competed with each other for limited budget resources.




                                               14
To compensate for the excess hiring and to align the S&E budget with the marks, the
Corporation placed significant limitations on spending rates for the second half of FY 2008,
which adversely affected the Corporation’s operations. Specifically, the Corporation
instituted a plan with projected savings of $2 million in non-payroll expenses and $1 million
in salaries. The plan was implemented and provided for:

   Reduced discretionary spending across all Corporation Departments, which limited
    personnel travel, supplies, printing, and training;
   Slowed hiring to mission-critical positions only;
   Eliminated approximately 30 percent of discretionary positions; and
   Took up to one percent from program grant funds, which had been projected for program
    operations, to cover electronic grant management costs, which was authorized by the
    Consolidated Appropriations Act, 2008.

Subsequently, the Corporation monitored S&E through biweekly S&E meetings, which
included involvement of the Corporation Department Heads and required the personal
approval of the CEO for all new hires. The Corporation held these biweekly S&E meetings
from May 2008 to the end of FY 2008 to discuss personnel levels and plan for S&E for
mission-critical hires. Through these actions, the Corporation ended the fiscal year on
budget and within the spending limits, but also helped create the operational deficiencies
which resulted in the Congressional request to OIG for this evaluation.

The relevant criterion governing the need for monitoring among Corporation personnel for
the S&E issue come from the GAO Standards for Internal Control in the Federal Government.
Those Standards state, in part:

       Internal control should generally be designed to assure that ongoing monitoring
       occurs in the course of normal operations. It is performed continually and is
       ingrained in the agency’s operations. It includes regular management and
       supervisory activities ... and other actions people take in performing their
       duties.

    E. National Civilian Community Corps

The Corporation had weaknesses in estimating its costs, monitoring and executing its NCCC
budget, and funding its leasing contracts for NCCC campuses. In addition, the Corporation
lacked detailed support for its budget estimates and lacked documentation of its decision-
making. The Corporation has taken positive action to strengthen NCCC weaknesses
exposed during FY 2008, and has addressed some of the causes. In addition, the new
Vicksburg, Mississippi campus was not opened in FY 2008 as expected by Congress.

1. Estimating Costs. The Corporation budgeting staff and its NCCC staff did not document
their decision-making and rationale, or otherwise have available support, for the $5 million
figure which it gave as necessary to open the two new campuses. With regard to the
development of the $5 million funding estimate that was later the amount appropriated for
the new campuses at Vinton and Vicksburg, the Corporation’s representatives advised that
the $5 million figure, as suggested and provided to the congressional appropriations
committee staffers for their consideration, rested on historic data and past experience in
setting up NCCC campuses. But, they made no attempt to determine if that past experience
was in fact applicable to the different venues of the two new campuses. The Corporation



                                             15
also was unable to provide documentation showing its review and approval for the
suggested budget estimate. Although the Corporation discussed the funding for the two
new NCCC campuses during various internal meetings, it did not document the decisions
made at these meetings. In addition, our interviews established that there was a division of
understanding among Corporation personnel whether the $5 million figure included solely
the campus set-up cost (bricks and mortar), or the campus set-up cost plus operational
costs for that year. Confusion and miscommunication among Corporation personnel
hindered the effort to provide timely and accurate figures to parties inside and outside the
Corporation.

With regard to opening the campuses in accordance with the timing and monetary
expectations expressed in the Joint Explanatory Statement: 11 no documentation was
provided to us to support or explain the $5 million figure. Moreover, through our interviews
with various Corporation personnel, it became clear that they initially, but privately,
questioned whether the $5 million figure was sufficient to cover the two new campuses. The
CEO explained that the $5 million was used as a practical matter because Congress would
not provide more money. In spite of the concerns expressed to us by some NCCC
personnel, none of them expressed their concerns to the CEO that the $5 million was an
insufficient amount to open and/or operate these campuses in FY 2008. We have been
informed in interviews that some employees believed that the CEO did not want to hear
criticisms of his policies or decisions, and that many Corporation personnel worried that if
they expressed their concerns, it could adversely affect their careers. As of March 2009,
approximately $5.7 million had been obligated to open the two new campuses.

Lacking budget-forecasting and financial-management tools, the Corporation was unable to
provide timely and accurate budget forecasting related to NCCC costs as requested by
Congressional appropriations committee staffers.       NCCC budget data, including
assumptions used for formulating the budget, were not fully organized and documented,
causing the Corporation to spend much effort and time researching budget data and
responding to inquiries from Congressional appropriations committee staffers.
Consequently, when budget forecast requests were made in a time-sensitive manner, the
quality of budget forecast data was unreliable.

2. Monitoring and Executing the Budget. The Corporation also lacked sufficient internal
controls or discipline to follow existing controls applicable to the NCCC budget execution
process. Such insufficient management controls could, and did, affect NCCC campus
operations. For example, the then Director of NCCC did not submit the certification
package 12 for the incoming NCCC members at the Sacramento, California, and Denver,
Colorado, NCCC campuses in a timely manner. The then Director of NCCC provided the
certification package to the Office of Budget, CFO, COO, and CEO, on the eve of the
scheduled opening date for the classes at Sacramento and Denver campuses. As a result,
there was not sufficient time for the Office of Budget, CFO, COO, and CEO to certify the
availability of funds and complete the review process of the certification package. To
resolve the issue, the Corporation worked with OMB in late September 2008 and obtained
an exception apportionment through SF 132 “Apportionment and Reapportionment
Schedule” on October 3, 2008.           Without these corrective actions, classes at the
11
     See footnote 5.
12
   The Corporation prepared internal documents (certification package) to certify sufficient funds and slots for the
incoming NCCC members. Corporation personnel, including CEO, CFO, COO, and Director of NCCC, approve
and sign off on the certification package before completing the NCCC member enrollment process.


                                                        16
Sacramento, and Denver campuses, scheduled to open October 6, 2008, would have been
delayed, which would have affected the overall operations of the NCCC Program. The
Corporation was also unable to confirm with its NCCC members, who had scheduled their
arrivals before the opening day, that the Sacramento and Denver campuses would be able
to secure them, until after business hours October 3, 2008. Although the Corporation
managed to start the classes as scheduled on October 6, 2008, the problem exposed
weaknesses in managing the NCCC Program, showed that certain required policies and
procedures were not being followed as part of the NCCC budget execution process, and
weakened the confidence of NCCC members in the program.

The NCCC operated under a decentralized environment. In such an environment, the
assigned Executive Officer, who had responsibility for managing sub-allotments for Program
Offices under each Department, worked with and reported to NCCC program officials, and
each NCCC campus received its own spending authority. However, there was a lack of
coordination and communication among the Office of Budget, the Executive Officer, and the
then Director of NCCC. Within the NCCC Program Office, many of the budget decisions
were made by the Executive Officer and the then Director of NCCC with few consultations
with the Office of Budget or leaders from NCCC campuses. The former Director of NCCC
had difficulty at times understanding and following budget requirements and related policies
and procedures, as shown from the problems with certifying incoming NCCC members,
described above.

3. Leasing Campuses. Corporation Policy 350 REV02, Procuring Supplies and Services,
dated October 1, 2006, requires that sufficient funds be available at the time acquisitions,
including leases, take place. We were advised by Corporation representatives that the
Corporation had a practice of incrementally funding its leases. Neither the NCCC Program
Office personnel nor Office of Procurement Services personnel knew, at that time, that
contracts of this nature must be fully funded at contract award absent other authority in
accordance with the Federal Acquisition Regulation. The Corporation’s Office of General
Counsel (OGC) detected this incremental funding practice and brought it to the attention of
the CEO and others.

Subsequently, OGC reviewed a similar lease for the Sacramento, California, campus but
found no under-recorded obligation. Because of the incident involving the Denver campus,
however, the Corporation took steps to prevent a repetition. The CEO orally directed that
leases be fully funded, which added to the budget pressures. The new Director of Office of
Procurement Services orally communicated to his staff in the summer 2008 that leases
should be fully funded. In addition, the new Director of Procurement Services prepared a
memorandum, dated March 12, 2009, which emphasized to his contracting officers that all
procurement requests, including leases, had to be fully funded.

4. Corporation’s Corrective Actions. After the series of NCCC budget issues described
above, the Corporation took the following corrective actions:

   Developed a budget forecasting tool: Starting in FY 2009, the Corporation provides
    monthly budget updates to OMB to show and track its NCCC budget status;
   Restructured reporting of the Executive Officers, including the one assigned to NCCC,
    so that they reported to the Office of the CFO;
   Centralized NCCC operations to ensure coordinated management;




                                            17
   Appointed a new Acting Director of NCCC with many years of experience in the program
    and management experience in other Corporation programs;
   Put in place the planning procedures to ensure that NCCC maintains member levels that
    are sustainable under its apportionments; and
   Required full funding of leases at contract award or, in the alternative, the contracts were
    structured with options for additional six-month periods.

5. Relevant Criteria. The relevant criterion for the NCCC budget issue governing
documentation requirements includes the GAO Standards for Internal Control in the Federal
Government, which states, in part:

       Internal control … and other significant events need to be clearly documented,
       and the documentation should be readily available for examination … All
       documentation and records should be properly managed and maintained.

Criterion addressing the NCCC budget issue that the certification package was not completed
in a timely manner come from the GAO Standards for Internal Control in the Federal
Government, which lists “accurate and timely recording of events” as one of the control activity
examples. The GAO Standards for Internal Control in the Federal Government also states that
“for an entity to run and control its operations, it must have relevant, reliable, and timely
communications relating to internal … events.”

Other relevant criteria for the NCCC budget issues include the Federal Acquisition
Regulation. Specifically, 48 C.F.R. § 32.703-1 General. states, in part:

       (a) If the contract is fully funded, funds are obligated to cover the price or
       target price of a fixed-price contract or the estimated cost and any fee of a
       cost-reimbursement contract.

48 C.F.R. § 32.703-2 Contracts conditioned upon availability of funds. states, in part:

       (a) Fiscal year contracts. The contracting officer may initiate a contract action
       properly chargeable to funds of the new fiscal year before these funds are
       available, provided that the contract includes the clause at 52.232–18,
       Availability of Funds (see 32.705–1(a)). This authority may be used only for
       operation and maintenance and continuing services (e.g., rentals, utilities,
       and supply items not financed by stock funds) (1) necessary for normal
       operations and (2) for which Congress previously had consistently
       appropriated funds, unless specific statutory authority exists permitting
       applicability to other requirements.

    F. Information Technology

We determined that the Corporation did not have an IT strategic plan. The Fred Thompson
IT Report stated that the Corporation had a draft OIT Strategic Plan, which was written
before the then CIO started with the Corporation, but it contained only very broad goals and
mission statements that did not provide any specific guidance on how IT funds would be
applied and what priorities would be set. Without a single authoritative source to outline the
overall Corporation IT strategies, priorities, and development plans, each operating unit
decided on its own as to how IT systems were developed and funded.



                                              18
For example, we noted that an IT project, the Dashboard, was initiated and developed under
the direction of the then CFO. Although currently the Dashboard is still up and currently
running, it has limited use by Corporation personnel. While the Corporation invested much
time and funding to build the Dashboard, its value to its overall IT operations has not been
determined.     The Corporation’s published policy, dated February 29, 2008, on IT
investments, Corporation Policy OIT-07-002, Capital Planning and Investment Control
(CPIC), mainly addresses technical procedures on selecting and managing IT investments.
Due to the lack of an overall Corporation IT strategic plan, IT planning and investment
priorities are not aligned with the Corporation’s actual business needs and its budget
process.

As the Corporation experienced a series of difficult IT challenges during FY 2008, it
obligated and spent approximately $1 million 13 in FY 2008 to address those IT issues more
than it anticipated in the original IT budgets from all Corporation Departments. While the
Corporation obtained legislative authority from the Consolidated Appropriations Act, 2008 to
offset electronic grant management costs previously covered by S&E with up to one percent
of program grant funds, it also used projected non-pay discretionary savings to cover
unforeseen IT costs and emergency IT system fixes. As a result, this use deprived the
Corporation of funding that was initially intended for other purposes.

A portion of the costs used to resolve those IT issues was unanticipated and therefore no
advance planning could have been performed or foreseen. For example, as stated in the
Fred Thompson IT Report, the Infonetic bankruptcy caused substantial disruption in IT
services and the loss of critical expertise and detailed application knowledge within the
technical support team. The Corporation also incurred additional costs in securing
EnGenius as the substitute contractor to provide Corporation IT support services.

However, some of the significant costs incurred to resolve FY 2008 IT issues might have
been prevented if adequate planning had been accomplished with clear accountability and
defined roles for the Corporation’s IT management. As the Fred Thompson IT Report
pointed out, the technical test planning and its testing environment were inadequate, in that
they did not mirror the production environment. Applications and systems were not fully
tested before they went into production, increasing the risk of implementation issues and
resulting in additional time and costs spent to resolve the issues. Also, the Fred Thompson
IT Report found that Momentum and My AmeriCorps Portal Phase II were brought into
production with such rapidity that it strained technical and application resources. As a
result, there were multiple concurrent failures in both systems that were difficult to isolate
and diagnose. There were also issues with user training that could have been anticipated
and mitigated with better coordination and planning. Further, the Fred Thompson IT Report
found that a number of IT projects were under multiple leadership responsibilities,
inefficiently diffusing accountability for program success.

As described in the CIO’s position description and shown in the Corporation’s organizational
chart, the CIO was to report directly to the CEO. This reporting relationship is also required
by 44 U.S.C. § 3506. Contrary to that requirement, during FY 2008, and concurrent with



13
  This amount, which included the amount of staff time redirected to respond to the Corporation’s IT issues, is a
conservative estimate provided by the Corporation. We did not substantiate this estimate.




                                                      19
establishment of the Project Management Office (PMO), 14 the CEO directed that the CIO
functionally report to the CFO, who also managed IT systems competing for resources and
separate from the CIO’s systems. As a result, the CEO was no longer in a position to be
directly and independently advised on the Corporation's IT development, implementation,
and maintenance, as well as budgetary implications of information resource decisions.
While the Corporation went through a series of IT challenges in FY 2008, the reporting
structure between CIO and CFO further hindered the Corporation’s ability to resolve those
challenges, as well as IT budgetary issues, in a timely manner.

After the series of significant IT challenges faced during FY 2008, the Corporation made the
following changes:

    Personnel Changes: Appointment of an interim CIO was made in May 2008 to replace
     the CIO. Subsequently, the Corporation appointed a new permanent CIO reporting
     directly to the Acting CEO, effective April 2009;

    The Corporation is currently developing an IT Strategic Plan and Enterprise Architecture,
     including priority setting for infrastructure investments. A draft plan is scheduled for
     review by the end of calendar year 2009.

    Aligned the OIT focus on three priorities:

        o    Moving the core of IT infrastructure out of the Headquarters and into a managed
             service environment, with the contract for this purpose expected to be awarded
             by summer 2009;
        o    Upgrading Corporation IT software and applications to newer, more stable
             versions;
        o    Preparing the Corporation for delivery of the third release of the My AmeriCorps
             Portal, which was released in late July 2009.

The relevant criteria for the IT budget issues come from the GAO Standards for Internal
Control in the Federal Government, which states that:

        Management needs to comprehensively identify risks ... Risk identification
        methods may include … forecasting and strategic planning.

        It [agency’s organizational structure] provides management’s framework for
        planning, directing, and controlling operations to achieve agency objectives. A
        good internal control environment requires that the agency’s organizational
        structure clearly define key areas of authority and responsibility and establish
        appropriate lines of reporting.

        Effective information technology management is critical to achieving useful,
        reliable, and continuous recording and communication of information.


14
   PMO was a service organization for the entire Corporation, and was intended to elevate the usage of project
planning throughout the Corporation and to eliminate overlapping systems. PMO was designed to focus on key
projects and initiatives associated with grants, programs (for example, My AmeriCorps Portal and replacement
WBRS functionality), and enterprise systems (for example, Momentum upgrade, Data Warehouse, eTravel, etc.).
The PMO was dissolved by the then CEO in June 2008.


                                                     20
Other relevant criteria for the IT budget issues include 44 U.S.C. § 3506. Federal agency
responsibilities, which states, in part:

       (a)
       (1) The head of each agency shall be responsible for—
       (A) carrying out the agency’s information resources management activities to
       improve agency productivity, efficiency, and effectiveness; and

       (B) complying with the requirements of this subchapter and related policies
       established by the Director.

       (2)
       (A) … the head of each agency shall designate a Chief Information Officer
       who shall report directly to such agency head to carry out the responsibilities
       of the agency under this subchapter.

       (3) The Chief Information Officer designated under paragraph (2) shall head
       an office responsible for ensuring agency compliance with and prompt,
       efficient, and effective implementation of the information policies and
       information resources management responsibilities established under this
       subchapter, including the reduction of information collection burdens on the
       public. The Chief Information Officer and employees of such office shall be
       selected with special attention to the professional qualifications required to
       administer the functions described under this subchapter.

       (4) Each agency program official shall be responsible and accountable for
       information resources assigned to and supporting the programs under such
       official. In consultation with the Chief Information Officer designated under
       paragraph (2) and the agency Chief Financial Officer (or comparable official),
       each agency program official shall define program information needs and
       develop strategies, systems, and capabilities to meet those needs.

   G. Management Action Plan

In December 2008, the Acting CEO directed the development of a Management Action Plan
(MAP) to ensure readiness of the Corporation to meet its priorities. The MAP is to serve as
a blueprint for achieving the Corporation’s mission and preparing for growth under the new
Administration. The MAP was developed with input from the Corporation’s senior leadership
and the Corporation’s Board of Directors. The MAP includes tasks that address certain
budget issues that the Corporation experienced in FY 2008. These tasks include staffing,
budget forecasting and tracking, technology projects, and NCCC management
competencies. The MAP also includes specific tasks on implementation of the American
Recovery and Reinvestment Act as well as the Edward M. Kennedy Serve America Act,
which was signed into law on April 21, 2009. The Edward M. Kennedy Serve America Act
authorizes a series of new initiatives, creates new programs for social innovation and
volunteering, and makes significant changes to existing Corporation operations. It provides
greater opportunities for service, making even more crucial the implementation of adequate
budgeting procedures.




                                             21
VI. RECOMMENDATIONS

We recommend that the Corporation:

1. Update its Corporation Policy CFO-06-001, Administrative Control of Funds, on a timely
   and regular basis. Specifically, the Corporation Policy should be updated whenever
   necessary to reflect the latest:

       a. Corporation organizational structures;

       b. Corporation budget execution process and monitoring procedures; and

       c. Personnel roles, responsibilities, and their reporting structures.

Corporation's Response

The Corporation concurred with the recommendations. The Corporation stated that it
should regularly review policies to ensure they remain current and is reviewing all of its
policies. The revised Corporation policy on Administrative Control of Funds was considered
by the Corporation’s Policy Council on July 20, 2009. The Corporation will adopt this new
policy after considering OIG’s input and receiving OMB’s approval.

OIG's Comment

The Corporation is partially responsive to the recommendations. The Corporation is taking
steps to revise its policies, including Administrative Control of Funds, to cover the current
operational environment, but it has yet to address specific mechanisms on how and when
the Corporation will update its policies in the future. Without establishing specific automatic
mechanisms, such as providing for a specific review cycle for this policy and perhaps for
other policies, the Corporation is not in a position to preclude the same situation from
recurring in the future, that is, actual practices differing from written policies and procedures.

With regard to this policy, OMB Circular A-11, Section 150.7, provides in part:

       Agency fund control regulations are in effect only to the extent approved
       by OMB.
                                   *      *       *
       You should review your fund control regulations periodically to determine
       whether improvements should be made. At a minimum, review the
       system whenever:

              OMB issues revised guidance on budget execution.
              Your agency is reorganized.
              Staff from your agency has violated the Antideficiency Act
               [Emphasis Added].

Although OMB provides that agency fund control regulations are in effect only to the extent
approved by OMB, the Corporation should not ignore the fact that, with its internal
reorganization, it effectively changed how it operated, whether or not it documented it in the
Administrative Control of Funds. As a matter of practicality, it needs to issue interim written
guidance to describe its actual practices, pending review and approval by OMB, in its


                                               22
proposed policy. Its actual practices should reflect its written policies at all times; otherwise,
the Corporation is more susceptible to violations of the ADA.

In addition, the Corporation’s guidance on Preparing and Clearing Internal and Program
Policies and Procedures, CEO-03-100-7, effective April 27, 2009, is too general to ensure
that its policies remain current. It provides for a Program Policy Council to be involved in the
policy review process, but requires that “policies should be submitted for review . . . for
inclusion on the agenda. It does not require that each policy, including the Administrative
Control of Funds policy, include a specific frequency/cycle of Corporation policy review.
However, the Corporation Policy Council usually becomes involved only when officials
responsible for the policy submit it for review. The policy also states in paragraph D.1, Who
decides when a policy is updated?:

       Some policies are issued with an expiration date and some are not. The
       office with substantive responsibility for the policy should calendar
       policies that expire for timely review, and should periodically review it and
       consult with the department head and the Office of the CEO on other
       policies to determine whether they should be updated.

The Corporation would benefit from an action plan that will prevent recurrence, and not
merely a one-time update of policies.

2. Expand the Corporation Policy CFO-06-001, Administrative Control of Funds, or create a
   separate Corporation policy to address the Corporation’s budget formulation process,
   including standardized procedures and requirements on preparation, documentation
   (budget rationale, assumptions, and decisions), review, and approval during the budget
   formulation process.

Corporation's Response

The Corporation stated that it has not issued a separate policy on budget formulation
because policy direction is taken directly from the OMB Circular A-11 and supplemented
with specific guidance from OMB for each budget cycle. Instead, the Corporation annually
issues a memorandum with guidance and procedures to implement budget formulation
policies. The Corporation also stated that supporting budget documents will be centrally
maintained by the Office of Budget Formulation and Performance.

OIG's Comment

The Corporation’s response does not satisfy the intent of the recommendation. We
reviewed the Corporation’s budget formulation memorandum, dated July 13, 2009, for FY
2011 budget. Although the budget formulation memorandum contained instructions on
management and programmatic priorities, timeline, narrative format and contents, and
budget and program personnel responsibilities, the memorandum did not address:
(1) review and approval process of the overall budget by Corporation’s management;
(2) specific documentation requirements to support budget justifications and amounts; and
(3) budget formulation processes and policies within each department or program office.

In addition, the memorandum did not address how the Corporation should respond to out-of-
cycle budget inquiries from Congress regarding budget matters. As illustrated earlier in this
report, the Corporation was unable to provide support for the dollar figures for two new


                                               23
NCCC campuses that it provided to Congress. The Corporation should reconsider the
recommendation for a written, standing budget formulation policy and procedure that would
include a requirement for documenting budget information it provides to Congress.

3. Add the language in the Advice of Funds forms or its supporting attachments to ensure
   fund recipients are aware of the penalties for exceeding obligational authority.

Corporation's Response

The Corporation added specific language to the Advice of Funds documents to remind
employees of penalties related to any violation of exceeding obligational authority.

OIG's Comment

The Corporation’s action meets the intent of the recommendation.

4. Strengthen human capital areas through the following:

        a. Prompt recruitment of highly qualified budget personnel to fill existing vacancies
           in the Office of Budget;

        b. Develop plans to retain highly performing personnel and to minimize personnel
           turnover in the Office of the CFO;

        c. Ensure that employees and appointees that fill new vacancies or are reassigned
           to or assume new positions possess the required competencies, experience, and
           technical knowledge that matches directly and appropriately the needs of such
           positions;

        d. Revisit the Corporation’s organizational structure and evaluate responsibilities of
           each Corporation management and discretionary position to enhance
           coordination among personnel for daily Corporation functions, including the
           budget process;

        e. Ensure that the Corporation’s organizational charts are approved, current,
           accurate, and dated;

        f.   Identify and provide training, in-house and external, that directly addresses the
             needs of personnel and enhances their technical knowledge and/or personnel
             management skills so that specific guidelines are consistently applied,
             documented, and personnel know how to perform their tasks; and

        g. Review organizational structure and to include providing for an operationally
           focused senior official(s), such as a true COO, with organizational-wide
           responsibilities, who manages the Corporation’s administrative functions, thereby
           allowing the CEO to focus on overall Corporation operations. 15


15
  We had also intended to recommend that the CFO position change to a career or similar position to provide for
continuity of this important position because of the continuing turnover of CFOs. However, the Edward M.
Kennedy Serve America Act included a requirement to change the position from a Presidential appointee to a
career position, which obviated the need for the recommendation.


                                                      24
Corporation's Response

The Corporation stated that it hired a Director of Budget Formulation and Performance, a
Director of Budget Execution, and two budget analysts. The Corporation also plans to hire
additional permanent budget staff and utilize temporary staff during the interim period. The
Corporation also stated that a management consultant would assist the Corporation in the
review and redesign of its organizational structure, including the role of an operationally
focused senior official and other agency-wide management positions. In addition, the
Corporation’s Chief Human Capital Officer is now responsible for review and approval of all
organizational charts developed for posting or public availability. Regarding training, the
Corporation stated that funding for training has been separately proposed beginning in the
FY 2010 budget. Corporation supervisors will also closely monitor and identify mandatory
and technical training needs.

OIG's Comment

The Corporation’s response generally indicates concurrence. However, Recommendation
4.b. was not specifically addressed. We recognize the difficulty in responding to that
recommendation; therefore, we have revised the recommendation to better address the
cause, as follows:

       Substitute for Recommendation 4.b.: The Corporation should monitor
       turnover to determine whether there are factors that, if addressed quickly,
       could stem or reduce further turnover of its personnel.

For Recommendation 4.e., we reviewed organizational charts that the Corporation updated
in July 2009. Those organizational charts meet the intent of the recommendation. Other
organizational charts were yet to be updated as of July 31, 2009. For Recommendations
4.a. and 4.c., we confirmed the Corporation made additional hires. For Recommendations
4.d. and 4.g., we confirmed that the Corporation prepared a Statement of Work to obtain the
services of a management consultant to review Corporation’s organizational structure. For
Recommendation 4.f., we verified that the FY 2010 budget included a budget line item for
training under S&E. We also reviewed the Corporation’s budget formulation memorandum,
dated July 13, 2009, for the FY 2011 budget and noted that the Corporation included
training and professional development as one of the management priorities.

The proposed actions, except for Recommendation 4.b., meet the intent of the
recommendations.

5. Strengthen internal control regarding the budget process as follows:

       a. Clearly delineate responsibilities and reporting relationships as well as
          strengthen accountability for all Corporation personnel who are involved in the
          budget process;

       b. Enhance cooperation, coordination, and communications among Office of
          Budget, Departments Heads, CIO, Director of NCCC, and other Program Office
          personnel to ensure budget procedures are followed and decisions are made
          only after all have been able to input relevant information, which is clearly
          understood and communicated in an open, transparent manner;



                                             25
       c. Strengthen documentation on the budget formulation and decision-making
          process. Budget decisions and assumptions should be explained, documented,
          and maintained to allow Corporation personnel to track them in the future;

       d. Strengthen budgetary controls at allotment and sub-allotment levels and impose
          fiscal discipline to strictly enforce policies and budget marks as planned; and

       e. Continue to adopt, refine, and improve budget forecasting and financial
          management tools through documenting personnel roles in using and modifying
          these tools.

Corporation's Response

The Corporation stated that it centralized all budget staff, including NCCC, at the end of FY
2008. The restructuring moved Executive Officers out of the Offices of the CEO and COO
into the Office of the CFO. The Corporation also accelerated hiring of new employees. It
also implemented a monthly review of expenditures with Department Heads. New
forecasting models were also developed to provide a clear understanding of the impact of
changes in specific budget lines on the Corporation’s total budget. In addition, the
Corporation stated that it has established communications across the Office of the CFO
specific for operating under a CR. It also reported that a better understanding of the
apportionment process has been built into the budget planning and execution process.

OIG's Comment

The Corporation is partially responsive to the recommendations.

The Corporation did not fully address Recommendation 5.a. on how it would strengthen
accountability for all those officials (from the CEO down to the personnel who generate
budget information) involved in the budget process at different levels, and it did not state
how it “clearly delineat[ed] responsibilities.” We have no basis to judge whether it plans or
has completed satisfactory action to delineate responsibility/authority and hold officials
accountable.

For Recommendation 5.b., the Corporation’s implementation of a monthly review of agency
expenditures with Department Heads and its improved communications across the Office of
the CFO meet the intent of the recommendation. However, these changes need to be
incorporated into written control processes, such as the budget policy and procedure that we
previously recommended.

The Corporation did not address Recommendations 5.c. and 5.d.

For Recommendation 5.e., we reviewed Corporation-created spreadsheet budget tools that
show its status of funds. However, the Corporation has yet to document personnel roles in
using and modifying these tools.

6. Institute the following in connection with the IT budget:

       a. Develop an overall Corporation IT strategic plan and review it periodically with
          input from CIO, Corporation Management Team, and Program Office personnel
          (the same recommendation was made in October 2005 in the report Corporation


                                              26
           for National and Community Service: Building a Foundation for the Future issued
           by NAPA, but never implemented);

       b. With the objective of ensuring the continued viability of the IT infrastructure, set
          priorities for IT infrastructure investments, including hardware, software, and
          program planning, to evaluate and formulate the Corporation’s IT budget, and
          ensure that sufficient funds are allowed for that infrastructure;

       c. Ensure the CIO directly reports to the CEO and clarify the CIO's authority and
          responsibilities over the Corporation’s IT resources as outlined in 44 U.S.C. §
          3506; and

       d. Based on the contents of the Corporation IT strategic plan, review and update, if
          necessary, the Corporation Policy OIT-07-002, Capital Planning and Investment
          Control, to ensure it aligns with other Corporation policies and the Corporation IT
          strategic plan.

Corporation's Response

The Corporation stated that it hired a new CIO in May 2009. The Corporation anticipates
that a draft plan for addressing backlogs in IT operations will be ready for review by the end
of July 2009. The Corporation also anticipates a draft IT strategic plan will be ready for
review by the end of calendar year 2009. After the completion of the IT strategic plan, the
Corporation will revise its policy on Capital Planning and Investment Control. The
Corporation stated that the CIO leads the OIT and reports directly to the CEO.

OIG's Comment

For Recommendations 6.a., 6.b., and 6.d., the Corporation’s planned actions meet the intent
of the recommendations. For Recommendation 6.c., the Corporation’s comments provide
no indication of change. The position descriptions and Corporation organization charts of
the current and former CIO are no different with regard to reporting to the CEO, yet this
reporting structure was not followed during the tenure of the former CIO. The Corporation
needs to take action to provide more assurance to prevent future deviations from the formal
reporting structure between CIO and CEO. Although the CIO’s position description states
that CIO “is part of the CEO’s Executive Team and reports directly to the CEO,” a positive
action would be, for example, to include in the position description, and in the IT strategic
plan, a reference to the citation 44 U.S.C. § 3506 and its requirements on reporting.

7. Review and update the Corporation Policy 350 REV02, Procuring Supplies and
   Services, to ensure it aligns with other Corporation policies and emphasizes prohibited
   procurement practices, including incremental funding of leases.

Corporation's Response

The Corporation stated that it is updating the Corporation’s policy on Procuring Supplies and
Services to reflect changes since the last revision. The Corporation expects to share the
new policy on Procuring Supplies and Services with the Corporation’s Policy Council by the
end of FY 2009.




                                             27
OIG's Comment

The Corporation’s planned actions meet the intent of the recommendation.


VII. EXIT CONFERENCE

We conducted an exit conference with Corporation management on June 3, 2009, and
discussed the results of this report. On June 5, 2009, as provided for in the exit conference,
the Corporation provided a memorandum, which included additional details on corrective
actions taken or planned by the Corporation regarding budget issues. We reviewed the
Corporation’s memorandum and incorporated additional information, where appropriate,
before we issued the draft report and provided an opportunity for the Corporation to
comment on the findings and recommendations. The Corporation’s verbatim response to
the draft report is included as an Appendix.



This report is intended for the information and use of the OIG, Corporation management,
and the U.S. Congress. However, this report is a matter of public record and its distribution
is not limited.



/s/

Stuart Axenfeld
Assistant Inspector General for Audit
August 7, 2009




                                             28
                  APPENDIX:

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
        RESPONSE TO THE DRAFT REPORT
                                               NATIONAL&!
                                               COMMUNITY
                                               SERVICE.......~
            MEMORANDUM

            Date:      July 27, 2009

            To:        Stuart Axenfeld, Assistant Inspector General for Audit

            From:      William Anderson, Acting CFO      OJ~ akl'Y}
            cc:        Nicola Goren, Acting CEO
                       Frank: Trinity, General Counsel
                       Kristin McSwain, Chief of Program Operations
                       Rocco Gaudio, Deputy Chief Financial Officer, GFFM
                       Marlene Zakai, Senior Advisor to the Acting CEO
                       Amy R. Mack, Senior Advisor to the Acting CEO

            SUbject:   Corporation Comment on the Draft OIG Report: Evaluation of the Fiscal Year 2008
                       Budget Process


            Thank: you for the opportunity to comment on the Office of the Inspector General Draft Report:
            Evaluation o/the Fiscal Year 2008 Budget Process, dated June 22, 2009. As you note in your
            report, starting in the second quarter of FY 2008 the Corporation took steps to compensate for
            higher than projected salaries and expenses costs following receipt of its FY 2008 appropriation,
            as well as a series of challenges with the Corporation's technology systems. As a result of taking
            these proactive steps, the Corporation ended the FY 2008 fiscal year on budget and within
            spending limits.

            While we do not agree with every conclusion drawn in the draft report, the Corporation is
            pleased that the majority of the recommendations identified in your evaluation align with the
            work outlined in the Corporation's Management Action Plan (MAP). As you are aware, in
            December 2008, Nicola Goren, Acting CEO, directed development of the MAP with input from
            the Board of Directors and senior leadership acroSs the Corporation to serve-as a dynamic
            blueprint for achieving the agency's mission and prepare for its growth.

         Below are the Corporation's responses to your recommendations. Many of the responses
         describe the steps the Corporation has already taken, or is in the process of taking, under the
         MAP and which are responsive to your recommendations. We believe that our responses meet
         the general intent of your recommendations, and result in the management improvements that are
         the objectives ofOIG's evaluation. Accordingly, this memorandum constitutes the
       . Corporation's management decision on these recommendations .
.      .

1; .
i
\ ',   .,
Recommendation 1: Update Corporation Policy CFO-06-001, Administrative Control of Funds,
on a timely and regular basis. Specifically, the Corporation Policy should be updated whenever
necessary to reflect the latest:

       a.   Corporation organizational structures;
       b.   Corporation budget execution process and monitoring procedures; and
       c.   Personnel roles, responsibilities, and their reporting structures.

Corporation Response: The Corporation agrees that it should regularly review policies to
ensure that they remain current and has a project underway to review all of its policies, including
the funds control policy, in response to a similar recommendation made in the fiscal 2008
financial audit. A revised funds control policy was being drafted before this evaluation began,
and was initially considered by the Corporation's Policy Council on July 20,2009. Prior to its
final adoption, OIG will have an opportunity to comment on the specifics of the draft policy.
The final document also requires OMB approval.


Recommendation 2: Expand Corporation Policy CFO-06-001, Administrative Control of
Funds, or create a separate Corporation policy to address the Corporation's budget formulation
process, including standardized procedures and requirements on preparation, documentation
(budget rationale, assumptions, and decisions), review, and approval during the budget
formulation process.

Corporation Response: The Corporation has not issued a separate policy on budget
formulation; policy direction is taken directly from OMB Circular A-II as supplemented with
specific guidance from OMB for each budget cycle. Annually, the Corporation issues a
memorandum to offices with guidance on procedures to implement these budget formulation
policies. The memorandum provides specific guidance on management and programmatic
priorities, format, funding targets, timeframes, and who is responsible for various tasks.
Supporting documents for the budget will be centrally maintained by the Office of Budget
Formulation and Performance. The budget formulation memorandum for the fiscal 2011 budget
(which focused on the Corporation's operational funding) was issued on July 13,2009. The
CFO's Office of Budget Formulation and Perforn,:tance is providing procedural guidance on
Operation and Maintenance funding in a series of meetings with Corporation managers. The
annual memorandum for the fiscal 2012 budget will cover both program and operations and
maintenance funding.


Recommendation 3. Add language in the Advice of Funds forms or its supporting attachments
to ensure fund recipients are aware ofthe penalties for exceeding obligational authority.

Corporation Response: The Corporation has added the following language to the
advice of funds document:

"Any officer or employee who makes or authorizes obligations or expenditures exceeding
the levels included in this document may be subject to administrative discipline as
specified in CNCSPolicy CFO-09-_, up to and including removalfrom office. Any

                                                  2
knowing or willful violation could result in a fine of up to $5,000, imprisonment for up to
two years, or both. "


Recommendation 4. Strengthen human capital areas through the following:

       a. Prompt recruitment of highly qualified budget personnel to fill existing vacancies in
          the Office of Budget;
       b.   Develop plans to retain highly performing personnel and to minimize personnel
            turnover in the Office of the CFO;
       c.   Ensure that employees and appointees that fill new vacancies or are reassigned to or
            assume new positions possess the required competencies, experience, and technical
            knowledge that matches directly and appropriately the needs of such positions;

Corporation Response (Recommendations 4 a, b, and c): The Office of the CFO made four
highly qualified hires since September of 2008 including the Director of Budget Formulation and
Performance, the Director of Budget Execution, and two budget analysts. Announcements for
additional budget staff have been posted and qualified candidates will be hired when identified.
The Office of the CFO will also utilize temporary staff to bridge its staffing needs until
permanent staff can be hired.

       d.   Revisit the Corporation's organizational structure and evaluate responsibilities of
            each Corporation management and discretionary position to enhance coordination
            among personnel for daily Corporation functions, including the budget process;

Corporation Response: The Corporation is engaging a management consultant to assist senior
leadership and the Board of Directors in the review and redesign of the Corporation's
organizational structure and position the Corporation to successfully implement the provisions of
the Serve America Act. The Corporation anticipates having a contract in place in August.

       e. Ensure that the Corporation's organizational charts are approved, current, accurate,
          and dated;

Corporation Response: The Corporation's Chief Human Capital Officer is now responsible for
review and approval of all organizational charts developed for posting or public availability,
including those published in budgets and reports as well as on the Corporation's website.

       f.   Identify and provide training, in-house and external, that directly addresses the needs
            of personnel and enhances their technical knowledge and/or personnel management
            skills so that specific guidelines are consistently applied, documented, and personnel
            know how to perform their tasks; and

Corporation Response: Annually, Corporation managers have developed training plans for
their staff to meet the needs of the agency and enhance staff members' technical knowledge.
Beginning in the fiscal 2010 budget, funding for training has been separately proposed and will
continue to be made part ofthe budget formulation discussions for inclusion each year.



                                                 3
Supervisors will closely monitor and identify mandatory and technical training needs for their
respective direct reports.

       g. Review organizational structure and include providing for an operationally focused
          senior official(s), such as a true COO, with organizational-wide responsibilities, who
          manages the Corporation's administrative functions, thereby allowing the CEO to
          focus on overall Corporation operations.

Corporation Response: The Corporation is engaging a management consultant to assist senior
leadership and the Board of Directors in the review of its management structure including the
role of an operationally focused senior official and other agency-wide management positions.


Recommendation 5. Strengthen internal control regarding the budget process as follows:

       a.   Clearly delineate responsibilities and reporting relationships as well as strengthen
            accountability for all Corporation personnel who are involved in the budget process;
       b.   Enhance cooperation, coordination, and communications among Office of Budget,
            Departments Heads, CIO, Director ofNCCC, and other Program Office personnel to
            ensure budget procedures are followed and decisions are made only after all have
            been able to input relevant information, which is clearly understood and
            communicated in an open, transparent manner;
       c.   Strengthen documentation on the budget formulation and decision-making process.
            Budget decisions and assumptions should be explained, documented, and
            maintained to allow Corporation personnel to track them in the future;
       d.   Strengthen budgetary controls at allotment and sub-allotment levels and impose
            fiscal discipline to strictly enforce policies and budget marks as planned; and
       e.   Continue to adopt, refine, and improve budget forecasting and financial management
            tools through documenting personnel roles in using and modifying these tools.

Corporation Response: The Office ofthe CFO was re-structured at the end of the last fiscal
year to centralize all budget staff (including NCCC), improving the oversight and monitoring of
the Corporation's budget and clearly delineating responsibilities moving forward. The
restructuring moved Executive Officers out of the Offices of the CEO and COO into the Office
of the CFO and accelerated the hiring of new employees as described in response to no. 4 above.

The Corporation also implemented a monthly review of agency expenditures with department
heads to address any budget concerns and to ensure that the departments remain within their
budgets. The information for these meetings is developed through daily interactions and regular
meetings between the CFO, Chief of Budget Execution and Executive Officers. New forecasting
models were also developed to ensure a clearer understanding of the impact of changes in
specific budget lines on the Corporation's total budget. In addition, as the result ofthe work of
the Corporation's internal control Senior Assessment Team, the Corporation established
communications across the offices of the CFO specific for operating under a continuing
resolution and better understanding of the apportionment process have been built into the budget
planning and execution process.

                                                4
Recommendation 6. Institute the following in connection with the IT budget:
       a.   Develop an overall Corporation IT strategic plan and review it periodically with
            input from CIO, Corporation Management Team, and Program Office personnel (the
            same recommendation was made in October 2005 in the report Corporation for
            National and Community Service: Building a Foundationfor the Future issued by
            NAP A, but never implemented);
       b.   With the objective of ensuring the continued viability of the IT infrastructure, set
            priorities for IT infrastructure investments, including hardware, software, and
            program planning, to evaluate and formulate the Corporation's IT budget, and ensure
            that sufficient funds are allowed for that infrastructure;
Corporation's Response (recommendations 6 a and b): The Corporation hired a new CIO in
May of this year. Development of an IT Strategic Plan and Enterprise Architecture including
priority setting for infrastructure investments is underway. A draft plan is anticipated for review
by end of calendar year 2009. A draft plan for addressing backlogs in IT operations is
anticipated by end of July.

       c.   Ensure the CIO directly reports to the CEO and clarify the CIO's authority and
            responsibilities over the Corporation's IT resources as outlined in 44 U.S.C. § 3506;
            and
Corporation's Response: The Office ofInformation Technology (OIT) is responsible for
technology for the Corporation. The ChiefInformation Officer (CIO) leads this office and
reports directly to the CEO. The CIO is responsible for technology related infrastructures,
software, hardware, technology contracts and staff that support the Corporation's operations.
The CIO is a member of the senior leadership team of the Corporation and meets regularly with
the CEO as well as the Executive Team to ensure that all information technology issues are
addressed.

       d.   Based on the contents of the Corporation IT strategic plan, review and update, if
            necessary, the Corporation Policy OIT-07-002, Capital Planning and Investment
            Control, to ensure it aligns with other Corporation policies and the Corporation IT
            strategic plan.
Corporation's Response: At the completion of the Corporation's IT Strategic Plan, OIT will
revise and update the Capital Planning and Investment Control plan to reflect the decision
making process around prioritization and spending for IT initiatives.


Recommendation 7. Review and update the Corporation Policy 350 REV02, Procuring
Supplies and Services, to ensure it aligns with other Corporation policies and emphasizes
prohibited procurement practices, including incremental funding of leases.

Corporation Response: The Corporation is updating Corporation Policy 350, Procuring
Supplies and Services, to reflect changes to business practices since the last revision and our
recent conversion to CitiBank© as the Corporation's GSA Smart Card purchasing and travel card
vendor. The policy will be in accordance with the Federal Acquisition Regulation and is
expected to be shared with the Policy Council by the end of the fiscal year.


                                                 5
